FDIC Office of Inspector General Press Release: Former Bank Employee in Neosho County
Sentenced for Embezzling More than $278,000
United States Department of Justice
United States Attorney
District of Kansas
FOR IMMEDIATE RELEASE
July 14, 2014
Former Bank Employee in Neosho County
Sentenced for Embezzling More than $278,000
WICHITA, KAN. - A former employee of a bank in Neosho County was sentenced Monday to a year and a day in federal prison for embezzling more than $278,000 from the bank and two customers, U.S. Attorney Barry Grissom said.
Sherrie Landell, 42, Erie, Kan., pleaded guilty to one count of embezzlement by a bank employee. In her plea, she admitted that from September 2007 to May 2013 she embezzled from Exchange State Bank.
Landell worked in the bankâs branch in St. Paul, Kan. She was responsible for maintaining the bankâs general ledger account and an account designated for accounts receivable on certificates of deposit. Money she stole included interest due on certificates of deposit. She fraudulently altered the bankâs records to conceal the crime. The shortage was discovered during a bank regulatory exam and subsequent audit by an independent accounting firm in 2013.
Grissom commended the U.S. Secret Service, the Federal Deposit Insurance Corporation and Assistant U.S. Attorney Aaron Smith for their work on the case.
####